         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Management of Naval Reactors'
Cyber Security Program




DOE/IG-0884                                 April 2013
                                  Department of Energy
                                     Washington, DC 20585

                                          April 12, 2013


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Naval Reactors'
                         Cyber Security Program"

INTRODUCTION AND OBJECTIVE

The Naval Reactors Program (Naval Reactors), an organization within the National Nuclear
Security Administration, provides the military with safe and reliable nuclear propulsion plants to
power warships and submarines. Naval Reactors maintains responsibility for activities
supporting the United States Naval fleet nuclear propulsion systems, including research and
design, operations and maintenance and the ultimate disposition of the nuclear propulsion plants.
Both the Department of Energy and the Department of Navy fund Naval Reactors. To fulfill its
mission, Naval Reactors utilizes numerous information systems that reside on both classified and
unclassified networks. It is imperative that the systems are protected against cyber security
threats, regardless of classification, given the sensitive nature of the Naval Reactors mission and
its impact on the naval fleet.

Previous Office of Inspector General reviews of Naval Reactors related to our Federal
Information Security Management Act of 2002 evaluations identified certain security weaknesses
related to access controls and contingency planning. While the program had taken action to
address weaknesses identified during our prior reviews, cyber security processes should continue
to evolve to address threats that are becoming more sophisticated and frequent. As noted in a
U.S. Government Accountability Office report on Continued Attention Needed to Protect Our
Nation's Critical Infrastructure and Federal Information Systems (GAO-11-463T, March 2011),
cyber security threats are originating from a wide variety of sources, including foreign nations
and disgruntled or former employees. We initiated this audit to determine whether the Naval
Reactors Program had effectively managed its cyber security program.

RESULTS OF AUDIT

Naval Reactors had made a number of enhancements to its cyber security program over the past
several years. However, we identified weaknesses related to vulnerability management, access
controls, incident response and security awareness training that could negatively affect its
security posture. In particular:
   •   Naval Reactors' vulnerability management controls and processes were not fully effective
       in applying security patches for all desktop and network applications. For example,
       although the program had taken action to correct the vast majority of vulnerabilities
       identified during scans performed in July 2011, our current review disclosed 335 high
       and medium risk vulnerabilities. Naval Reactors officials were unable to provide us with
       information regarding the age of the identified weaknesses due to the lack of an adequate
       corrective action tracking mechanism.

   •   Controls over access to information and systems at Naval Reactors were not always
       operating effectively. Specifically, system access had not been revoked for terminated
       and/or separated employees within timeframes established by Naval Reactors' security
       policies. In addition, officials were not always able to provide documentation supporting
       the approval of individuals' access to information systems.

   •   Our review identified that a confirmed cyber security incident involving malicious code
       located on the unclassified network in January 2012 was not reported to the Department's
       Joint Cyber Security Coordination Center, as required. Reporting all instances of
       successful infection or persistent attempts at infection by malicious code is a key aspect
       of ensuring the effectiveness of the Department's incident handling capabilities, including
       sharing information concerning common vulnerabilities and threats within the
       organization.

   •   Although Naval Reactors had established a cyber security awareness training program, its
       implementation was not always effective. For instance, we determined that the Naval
       Reactors Laboratory Field Office had not conducted annual cyber security training in
       Fiscal Year 2011 for any of its almost 200 Federal employees. In addition, we noted that
       contractor employees did not always complete the required security training within the
       established due dates.

The weaknesses identified occurred, in part, because Naval Reactors had not ensured that
necessary cyber security controls were fully implemented. Specifically, officials had not fully
developed and/or implemented policies and procedures related to vulnerability management,
access controls, incident response and cyber security training. For example, officials stated that
an enterprise-wide vulnerability management policy outlining specific criteria for the treatment
of all third-party vulnerabilities did not exist. In addition, Naval Reactors had not always
effectively utilized Plans of Action and Milestones to track, prioritize and remediate cyber
security weaknesses.

To its credit, Naval Reactors had taken a number of actions to strengthen its cyber security
program in recent years. However, absent a fully effective cyber security program, information
systems and data remain at a higher than necessary risk of compromise. As such, we made
several recommendations that, if fully implemented, should help the program address the
weaknesses identified. Due to security considerations, information on specific weaknesses and
information systems has been omitted from this report. Naval Reactors officials were provided
with detailed information regarding respective weaknesses identified.


                                                 2
MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that
corrective actions had been taken or were planned to address the issues identified. Management
stated that it was committed to enhancing the Naval Reactors cyber security program and
planned to incorporate the report's recommendations into future improvements, as appropriate.
Management expressed concern with several conclusions in the report. Management's comments
and our responses to its expressed concerns are summarized in the body of the report.
Management's formal comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Nuclear Security
    Chief of Staff




                                              3
REPORT ON MANAGEMENT OF NAVAL REACTORS' CYBER
SECURITY PROGRAM


TABLE OF
CONTENTS


Cyber Security Management

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Recommendations and Comments ...................................................................................................7



Appendices

1. Objective, Scope and Methodology ...........................................................................................8

2. Related Reports ........................................................................................................................10

3. Management Comments ..........................................................................................................12
MANAGEMENT OF NAVAL REACTORS' CYBER SECURITY PROGRAM

CYBER SECURITY   The Naval Reactors Program (Naval Reactors) had taken a number
MANAGEMENT       of actions to improve its cyber security posture in recent years.
                 For instance, Naval Reactors worked to centralize its certification
                 and accreditation process by using a commercial-off-the-shelf
                 software product to enhance efficiency. Officials also worked to
                 improve security operations over the classified and unclassified
                 network infrastructure. While these are positive actions, our
                 review of the Naval Reactors cyber security program identified
                 various control weaknesses over unclassified and classified
                 information systems related to vulnerability management, access
                 controls, incident management and cyber security awareness
                 training.

                                     Vulnerability Management

                 Naval Reactors' implementation of vulnerability management
                 controls and processes was not fully effective in applying security
                 patches for third-party applications. In particular, in July 2011,
                 Naval Reactors proactively worked with testers from the National
                 Nuclear Security Administration's (NNSA) Information Assurance
                 Response Center (NIARC) to conduct an in-depth vulnerability
                 scan of its classified information systems and network. During the
                 scan, NIARC identified approximately 9,000 high and medium risk
                 vulnerabilities. To its credit, Naval Reactors had taken action to
                 remediate the vast majority of the identified vulnerabilities as of
                 the time of our review. However, in responding to our preliminary
                 report, Naval Reactors rescanned its systems and identified 335
                 high and medium risk vulnerabilities. While we commend the
                 program for significantly reducing the number of vulnerabilities, a
                 Naval Reactors official noted that a subset of the 335
                 vulnerabilities included 9 high risk weaknesses originally
                 identified by the 2011 NIARC scans. The official commented,
                 however, that the program was unable to determine how many of
                 the medium risk vulnerabilities remained from the NIARC scan.

                 Despite making progress in the remediation of identified
                 vulnerabilities, the Naval Reactors official noted that the program
                 was still attempting to formalize a process for effectively tracking
                 the progress of corrective actions taken to remediate identified
                 vulnerabilities. As noted by the National Institute of Standards and
                 Technology (NIST), an effective vulnerability management system
                 can reduce the amount of time and resources spent responding to
                 vulnerabilities and exploitation of those weaknesses. Furthermore,
                 proactive management of system vulnerabilities can reduce or
                 eliminate the potential for exploitation and involves considerably
                 less time and effort than responding after an event has occurred.


Page 1                                                           Details of Finding
                                  Access Controls

         Our review determined that controls over access to information
         systems at Naval Reactors were not always operating effectively.
         In particular, access to information systems for
         terminated/separated employees had not been revoked within
         timeframes established by the program. While the Naval Reactors
         Cyber Security Program Plan required that network passwords be
         disabled within 24 hours when a user's access privileges are
         revoked, 19 of 53 (36 percent) terminated/separated employees did
         not have their access revoked within the required timeframe. One
         former employee's account remained active for 103 days after
         separation from Naval Reactors. A key control for protecting
         information technology systems and the information that resides on
         them is to implement effective, logical and physical access controls
         that help prevent unauthorized modification, loss or disclosure of
         information.

         We also identified weaknesses over the approval process for
         granting system access to new employees. According to Naval
         Reactors' policy, a newly hired individual must complete Consent
         to Access National Nuclear Security Administration Computers
         and NNPP Net Email and Information Systems Responsibility
         Agreement forms prior to gaining access to the network. However,
         our sample of 90 new hires found that 3 individuals were missing
         the required approval forms. In addition, although Naval Reactors
         required access forms for users who were not Bechtel Plant
         Machinery Inc. (BPMI) employees to access individual systems,
         Naval Reactors was unable to provide documentation to support
         access approval for 6 of 10 non-BPMI employees that were
         sampled.

                                 Incident Response

         Our review of incident response and reporting practices at Naval
         Reactors identified that a confirmed cyber security incident
         involving the unclassified network in January 2012 had not been
         reported to the Department of Energy's (Department) Joint Cyber
         Security Coordination Center (JC3). Specifically, an exploit of
         malicious code was identified by NIARC through routine scans of
         the network perimeter and was referred to Naval Reactors for
         further investigation. While officials confirmed the malicious code
         incident, they issued a negative report to JC3 during the month it
         occurred stating that there were no incidents to report. As noted by
         JC3 reporting requirements, "all instances of successful infection
         or persistent attempts at infection by malicious code, such as
         viruses, Trojan horses, or worms" must be reported within 4 hours


Page 2                                                   Details of Finding
         of the confirmation of the event. In comments on our report,
         management stated that the incident was not reported because
         officials did not believe the attack was successful. While we did
         not identify indications that exploitation of systems and
         information had occurred, we did note that malware was
         successfully installed on a Naval Reactors unclassified system and,
         therefore, should have been reported in accordance with
         Department guidelines. According to the Office of Management
         and Budget, a key aspect of having a fully effective incident
         handling capability is sharing information concerning common
         vulnerabilities and threats within the organization.

                            Security Awareness Training

         Although Naval Reactors had established a cyber security
         awareness training program, its implementation was not always
         effective. Specifically, the Naval Reactors Laboratory Field Office
         had not conducted annual cyber security training in Fiscal Year
         2011 for any of its almost 200 Federal employees. As noted by the
         U.S. Department of Homeland Security, the most common vector
         for an intruder to gain unauthorized access to sensitive information
         is through phishing attacks, many of which can be prevented by
         effective user training. A phishing attack is a social engineering
         technique in which cyber attackers utilize email as a method to
         deliver malicious code in attached files or by diverting a user to a
         fake webpage, providing a gateway to the information that resides
         on the user's information system or network. One way to help
         minimize risk to both the program and the user is to ensure that an
         adequate security awareness training program is provided for all
         Naval Reactors employees.

         There were also many instances in which Naval Reactors
         contractors had not completed security training in a timely manner.
         Specifically, as noted in the following table, employees at four
         Naval Reactors facilities – BPMI, Knolls Atomic Power
         Laboratory (KAPL), Bettis Atomic Laboratory (Bettis) and the
         Naval Reactors Facility (NRF) – were delinquent in completing
         annual cyber security training within the required timeframes.

                             Total          Total         Percentage
               Site        Delinquent     Population      Delinquent
           BPMI                    52             891            6%
           KAPL                 2,946           3,067           96%
           Bettis                 773           2,572           30%
           NRF                     35           1,212            3%
            Totals              3,806           7,742           49%



Page 3                                                   Details of Finding
                    To their credit, certain entities had taken action subsequent to our
                    review. However, in one instance, 310 of 3,067 (10 percent)
                    KAPL employees had yet to complete training requirements as of
                    June 2012.

Implementation of   The issues identified occurred, in part, because Naval Reactors had
Cyber Security      not ensured that the necessary cyber security requirements were
Controls            fully implemented. In particular, Naval Reactors had not fully
                    developed and/or implemented policies and procedures related to
                    vulnerability management, access controls, incident response and
                    cyber security training. In addition, Naval Reactors had not always
                    effectively utilized Plans of Action and Milestones (POA&M) to
                    track, prioritize and remediate cyber security weaknesses.

                                          Policies and Procedures

                    We found that, in many cases, policies and procedures were not
                    fully developed or not effectively implemented to ensure that cyber
                    security weaknesses were corrected. In particular, the vulnerability
                    management weaknesses identified occurred, in part, because
                    Naval Reactors lacked adequate policies and procedures for
                    patching vulnerabilities in third-party software applications. For
                    example, although the Naval Reactors' vulnerability management
                    process was specific to the application of patches highlighted in
                    bulletins issued by JC3, an enterprise-wide vulnerability
                    management policy outlining specific criteria for the treatment of
                    all third-party vulnerabilities did not exist. Officials told us that
                    efforts to draft an enterprise-wide policy had recently begun, but
                    the efforts were not complete at the time of our review. In addition
                    to the lack of policies and procedures, officials commented that
                    certain patches had not been implemented due to potential
                    operational impacts, availability of patches from vendors and the
                    configuration of desktop systems. As noted by NIST Special
                    Publication 800-40v2, Creating a Patch and Vulnerability
                    Management Program, the development of a formal plan that
                    outlines how to prioritize and remediate identified vulnerabilities
                    in a timely manner is critical to maintaining the operational
                    availability, confidentiality and integrity of information systems.

                    We found that while Naval Reactors had developed policies and
                    procedures related to managing access controls, these policies and
                    procedures were not always effectively implemented. For
                    example, Naval Reactors did not centrally manage its access
                    control records, which contributed to missing system access
                    approvals and delays in revoking access for terminated/separated
                    employees. In many instances, paper copies of approvals were
                    filed in binders throughout multiple Naval Reactors facilities. In

Page 4                                                               Details of Finding
         addition, an enterprise-wide system or process was not utilized to
         revoke logical access of terminated/separated employees; rather,
         each individual site utilized different processes. Furthermore, one
         of the Naval Reactors employees responsible for the
         termination/separation of employees was unaware of the procedure
         to revoke access within 24 hours of termination/separation.

         We also determined that cyber security incidents were not always
         reported in a timely manner because Naval Reactors' Incident
         Response Policy contained a different interpretation from JC3 of
         what constituted a malicious code incident. Specifically, we noted
         that the Naval Reactors policy stated that malicious code incidents
         were to be reported to JC3 when "successful large network site-
         wide infection or persistent attempts at infection by malicious code
         occurred." This deviated from the JC3 reporting guidelines,
         however, which noted that "all instances of successful infection"
         should be reported. We also found that Naval Reactors lacked a
         fully automated system to track cyber security incidents and noted
         instances in which the current procedures allowed the use of
         duplicative tracking numbers and the incorrect classification of an
         incident. For example, while Naval Reactors classified one
         malicious code incident we reviewed as "closed," our evaluation of
         the incident report found that the status was recorded as "open."

         Furthermore, we found inadequate implementation of changes to
         cyber security awareness training procedures. Specifically,
         although the site transitioned to training employees using an online
         service, Naval Reactors Federal employees did not have the
         necessary application licenses needed to access the training
         material. The contractor responsible for establishing the training
         was unaware of this issue until we brought it to their attention.
         Subsequently, site officials initiated a process to ensure that all
         Federal employees receive the required cyber security training. In
         addition, we noted that Naval Reactors had not consistently
         terminated access for those contractor individuals who had not
         completed training within the established training deadlines as
         required by site procedures.

                           Plan of Action and Milestones

         Naval Reactors had not always effectively utilized POA&Ms to
         track, prioritize and remediate cyber security weaknesses. In
         particular, although Naval Reactors had a process in place to
         develop POA&Ms, the process did not fully meet the requirements
         set forth by NNSA Policy (NAP) 14.1C, NNSA Baseline Cyber
         Security Program, for tracking, documenting and correcting
         program and system level findings. For example, the weaknesses

Page 5                                                   Details of Finding
                            identified during the NIARC vulnerability scan were not captured
                            in a POA&M, even though NAP 14.1C required that "findings"
                            identified through such activities are captured in a POA&M.
                            Rather, Naval Reactors only required weaknesses identified
                            through the certification and accreditation process to be entered
                            into the POA&M. As noted by the Office of Management and
                            Budget, a POA&M reflects the enterprise security needs of an
                            agency and provides a roadmap for continuous security
                            improvement, assists with prioritizing corrective action and
                            resource allocation, and is a valuable management and oversight
                            tool for agency officials.

Improvements for Naval Absent an effective enterprise-wide vulnerability management
Reactors Cyber Security process, Naval Reactors' applications that are missing security
Program                 patches for known vulnerabilities are at risk for computer viruses
                        and other malicious attacks that could allow attackers the ability to
                        compromise systems and information. In addition, without
                        effective account management practices, the weaknesses noted
                        may increase the risk of malicious or unauthorized access to the
                        unclassified and classified networks, systems and related
                        applications. Furthermore, inadequate development and
                        implementation of incident response policies and procedures may
                        increase the risk that the Department will not have a
                        comprehensive view of specific threats to its information systems.
                        Also, improving the POA&M process could facilitate
                        management's understanding of the cyber security risks within
                        Naval Reactors and help prioritize investments to ensure adequate
                        protection of data and information systems.

RECOMMENDATIONS             To help Naval Reactors address the challenges in developing a
                            mature and effective information security program, we recommend
                            that the Administrator, National Nuclear Security Administration,
                            direct the Naval Reactors Laboratory Field Office to:

                                  1. Establish an effective enterprise-wide vulnerability
                                     management program, including development and
                                     implementation of policies and procedures for both the
                                     classified and unclassified networks;

                                  2. Centralize the management of user accounts to include a
                                     repository for system access approvals, as well as ensure
                                     that the granting and revocation of access is in
                                     accordance with Naval Reactors policy;

                                  3. Properly align Naval Reactors incident reporting
                                     guidance with JC3 reporting requirements to help ensure



Page 6                                                                    Recommendations
                            all cyber security incidents are properly reported, as
                            required;

                        4. Strengthen policies and procedures related to POA&Ms
                           to ensure that all identified cyber security weaknesses are
                           tracked, prioritized and remediated in a timely manner;
                           and

                        5. Implement policies and procedures to ensure that cyber
                           security awareness training is completed in a timely
                           manner.

MANAGEMENT         Management generally concurred with the report's recommendations
REACTION           and indicated that corrective actions had been taken or were
                   planned to address the issues identified. Management stated that it
                   was committed to enhancing the Naval Reactors cyber security
                   program and planned to incorporate the report's recommendations
                   into future improvements, as appropriate. Management
                   commented that the program proactively worked with NNSA to
                   conduct vulnerability scans and immediately began to remediate
                   identified weaknesses. In addition, management stated that it
                   continues to work towards finalizing policies and procedures
                   supporting the vulnerability management program and
                   strengthening procedures related to access controls. Furthermore,
                   management considered its actions related to incident reporting
                   and managing POA&Ms to be consistent with Department
                   requirements. Management also stated that users' training is now
                   current, and planned modifications to tracking systems will
                   improve retrieval of training records.

AUDITOR COMMENTS   Management's planned corrective actions are responsive to our
                   recommendations. As to the areas in which management expressed
                   concerns, we determined that although management stated that the
                   handling of the cyber security incident noted in our report was in
                   accordance with Department requirements, we found that malware
                   was installed successfully on an unclassified system and, therefore,
                   should have been reported to JC3. In addition, while management
                   stated that Naval Reactors' implementation and reporting of
                   POA&Ms was consistent with NNSA requirements, we noted that
                   officials did not include all program and system-level findings in the
                   POA&M in accordance with NNSA policy. Management's
                   comments are included in their entirety in Appendix 3.




Page 7                                          Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Naval Reactors Program (Naval
              Reactors) effectively managed its cyber security program.

SCOPE         The audit was performed between March 2012 and April 2013 at
              the Naval Reactors Laboratory Field Office and the Bechtel
              Marine Propulsion Corporation in West Mifflin, Pennsylvania. We
              also obtained information from other Naval Reactors facilities, as
              necessary. The audit was limited to the review of Naval Reactors'
              cyber security activities. At the request of Naval Reactors
              officials, we did not conduct vulnerability scanning on the
              network, but instead relied upon scans conducted by National
              Nuclear Security Administration Information Assurance Response
              Center (NIARC) and Naval Reactors personnel.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and regulations, including
                       those pertaining to information and cyber security;

                   •   Reviewed applicable standards and guidance issued by
                       the Office of Management and Budget and the National
                       Institute of Standards and Technology (NIST) for the
                       planning and management of system and information
                       security such as Federal Information Processing
                       Standards Publication 200, Minimum Security
                       Requirements for Federal Information and Information
                       Systems; and, NIST Special Publication 800-53,
                       Recommended Security Controls for Federal Information
                       Systems and Organizations;

                   •   Obtained and analyzed documentation from Naval
                       Reactors related to the planning, development and
                       management of cyber security related functions such as
                       cyber security plans, Plans of Action and Milestones and
                       budget information;

                   •   Assessed controls over network operations and systems to
                       determine the effectiveness related to safeguarding
                       information resources from unauthorized internal and
                       external sources;

                   •   Reviewed prior reports issued by the Office of Inspector
                       General and the Government Accountability Office; and

                   •   Held discussions with officials from the Naval Reactors
                       Laboratory Field Office and site support contractors.


Page 8                                    Objective, Scope and Methodology
Appendix 1 (continued)

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives. Accordingly, we
                    assessed significant internal controls and Naval Reactors'
                    implementation of the GPRA Modernization Act of 2010 and
                    determined that it had not established performance measures for its
                    cyber security efforts. Because our review was limited, it would
                    not have necessarily disclosed all internal control deficiencies that
                    may have existed at the time of our evaluation. We did not solely
                    rely on computer-processed data to satisfy our objective.
                    However, we validated the results of the scans performed by
                    NIARC and Naval Reactors personnel over various networks and
                    drives by confirming the weaknesses disclosed with responsible
                    on-site personnel. In addition, we confirmed the validity of other
                    data, when appropriate, by reviewing supporting source
                    documents.

                    Management waived an exit conference.




Page 9                                           Objective, Scope and Methodology
Appendix 2

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Follow-up Audit of the Department's Cyber Security Incident
       Management Program (DOE/IG-0878, December 2012). Although certain actions had
       been taken in response to our prior Cyber Security Incident Management Program report
       listed below, we identified several issues that limited the efficiency and effectiveness of
       the Department of Energy's (Department) cyber security incident management program
       and adversely impacted the ability of law enforcement to investigate incidents. For
       instance, we noted that the Department and the National Nuclear Security Administration
       continued to operate independent, partially duplicative cyber security incident
       management capabilities at an annual cost of more than $30 million. The issues
       identified were due, in part, to the lack of a unified, Department-wide cyber security
       incident management strategy.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2012
       (DOE/IG-0877, November 2012). The evaluation determined that 16 previously
       identified weaknesses remained uncorrected, including 4 from Fiscal Year (FY) 2010. In
       addition, during the review, it was noted that an additional 22 cyber security weaknesses
       were identified at various locations for FY 2012. The identified weaknesses were related
       to access controls, vulnerability management, system integrity of web applications,
       planning for continuity of operations and change control management. The weaknesses
       identified occurred, in part, because Department elements had not ensured that cyber
       security requirements were fully developed and implemented. In addition, programs and
       sites had not always effectively monitored performance to ensure that appropriate
       controls were in place. Without improvements to its unclassified cyber security program,
       including implementation of effective continuous monitoring practices and adopting
       processes to ensure security controls are in place and operating as intended, there is an
       increased risk of compromise and/or loss, modification and non-availability of the
       Department's systems and the information.

   •   Special Report on Management Challenges at the Department of Energy (DOE/IG-0874,
       October 2012). Based on the work performed during FY 2012 and other risk assessment
       tools, the Office of Inspector General identified nine areas, including cyber security,
       which remained as management challenges for FY 2013. While positive strides had been
       made in a number of areas, many of the Department's most significant management
       challenges were not amenable to immediate resolution.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2011
       (DOE/IG-0856, October 2011). The review determined that although the Department
       had taken steps over the past years to address previously identified cyber security
       weaknesses, additional efforts were needed to enhance its unclassified cyber security
       program. Weaknesses were identified in the areas of access controls, vulnerability
       management, business continuity/disaster recovery, change control management and
       annual cyber security refresher training. The weaknesses identified occurred, in part,

Page 10                                                                         Related Reports
Appendix 2 (continued)

       because Departmental elements had not ensured that cyber security requirements
       included all necessary elements and were properly implemented. Furthermore, program
       elements also did not always utilize effective performance monitoring activities to ensure
       that appropriate security controls were in place. Without improvements to its
       unclassified cyber security program, such as consistent risk management practices and
       adopting processes to ensure security controls are appropriately developed, implemented
       and monitored, there is an increased risk of compromise and/or loss, modification and
       non-availability of the Department's systems and information.

   •   Audit Report on The Department's Cyber Security Incident Management Program
       (DOE/IG-0787, January 2008). Program elements and facility contractors established
       and operated as many as eight independent cyber security intrusion and analysis
       organizations whose missions and functions were partially duplicative and not well
       coordinated. Sites could also choose whether to participate in network monitoring
       activities performed by the organizations. Furthermore, the Department had not
       adequately addressed related issues through policy changes, despite identifying and
       acknowledging weaknesses in its cyber security incident management and response
       program.

U.S. Government Accountability Office Report

   •   Report on Continued Attention Needed to Protect Our Nation's Critical Infrastructure
       and Federal Information Systems (GAO-11-463T, March 2011).




Page 11                                                                        Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 12                            Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                    IG Report No. DOE/IG-0884

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
